   December 09, 2005




Financial Management
Puget Sound Naval Shipyard
Mission-funded Prototype
(D-2006-037)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
COMPACFLT                    Commander, U.S. Pacific Fleet
DON                          Department of the Navy
DUSD (L&MR)                  Deputy Under Secretary of Defense for Logistics and
                               Material Readiness
GAO                          Government Accountability Office
NAS                          Naval Audit Service
NAVSEA                       Naval Sea Systems Command
OUSD (AT&L)                  Office of the Under Secretary of Defense for Acquisition,
                               Technology, and Logistics
OUSD (Comptroller)/CFO       Office of the Under Secretary of Defense
                               (Comptroller)/Chief Financial Officer
PBD                          Program Budget Decision
WARR                         Workload and Resource Report
WCF                          Working Capital Fund
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                       December 9,2005


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTR0LLER)lCHIEF
                 FINANCIAL OFFICER
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on Puget Sound Naval Shipyard Mission-funded Prototype (Report
         NO. D-2006-037)

       We are providing this report for review and comment. The Deputy Comptroller for
Program and Budget, Office of the Secretary of Defense (Comptroller)/Chief Financial
Officer (OUSD [Comptroller]/CFO) requested that we conduct this audit. The Under
Secretary of Defense for Acquisition, Technology, and Logistics and the OUSD
(Comptroller)/CFO did not respond to the draft report; however, we considered the
comments received from the Navy.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Department of Navy comments were partially responsive. As a result of management
comments, we revised recommendation A.2. to add the Office of the Assistant Secretary of
the Navy (Financial Management and Comptroller), Office of Budget as an addressee to
provide comments on the final report. We request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the OUSD (Comptroller)/CFO; and the Navy
provide comments by January 9,2006.
        If possible, please send management comments in electronic format (Adobe Acrobat
file only) to Audclev@,dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in place
of the actual signature. If you arrange to send classified comments electronically, they must
be sent over the SECRET Internet Protocol Router Network (SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Raymond D. Kidd at (703) 325-55 15 or Mr. Kenneth B. VanHove at (216) 706-0074
extension 245. See Appendix F for the report distribution. The team members are listed
inside the back cover.
                                  By direction of the Deputy Inspector General for Auditing:



                                          p a p . Granetto, CPA
                                        Assis ant Inspector General
                                     Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2006-037                                                  December 9, 2005
   (Project No. D2005-D000FC-0116.000)

          Puget Sound Naval Shipyard Mission-funded Prototype

                                 Executive Summary

Who Should Read This Report and Why? DoD program officials involved in budget
execution, operations, and reporting of consolidated Naval ship maintenance activities
should read this report. The report discusses the need for a more focused study of the
effects of the Puget Sound Naval Shipyard transition from a Navy Working Capital Fund
activity to a mission-funded activity.
Background. In FY 1998, the Department of the Navy (DON) consolidated the
management, operations, and funding of the Pearl Harbor Naval Shipyard and the Naval
Intermediate Maintenance Facility (Pearl Harbor) in Hawaii. Upon completion of the
Pearl Harbor pilot, the Department of the Navy proposed to transition the other remaining
public shipyards to mission funding. However, Program Budget Decision (PBD) 700C,
“Navy Amended Budget Estimates Submission,” January 7, 2003, allowed the DON to
implement a 2-year prototype at only one additional shipyard, integrating intermediate
maintenance and depot-level activities and financing operations with mission funding.
On May 15, 2003, the DON officially merged all facilities and functions of the Puget
Sound Naval Shipyard in Bremerton, Washington, and the Naval Intermediate
Maintenance Facility, Pacific Northwest to create Puget Sound Naval Shipyard and
Integrated Maintenance Facility (Puget Sound) for the 2-year prototype, which began in
FY 2004.

The Deputy Comptroller for Program and Budget in the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer requested that we review the Puget Sound
Naval Shipyard mission-funded prototype. The Deputy Comptroller expressed concerns
that financing the public shipyards outside of the working capital fund would be
premature without an adequate evaluation of the Puget Sound Naval Shipyard mission-
funded prototype because this is a significant change for the Department’s management
of industrial fund activities. The working capital fund generally operates using private
sector management techniques and the total shipyard maintenance costs are fully funded
before beginning work on a ship, thus providing total cost visibility. Mission-funded
activities, on the other hand, use fiscal year appropriated resources to perform shipyard
maintenance.

Results. The DON cannot support the decision to transition other shipyards and
intermediate maintenance facilities to mission funding based on the Puget Sound
mission-funded prototype. The established metrics and goals used to track results of the
transition for the Puget Sound prototype were unreliable. Additionally, the metrics and
goals focused on the consolidation of the shipyard and intermediate maintenance facility
but did not address the impacts of mission funding. Also, the consolidated activities did
not routinely accumulate financial information as they had done when financed as a
working capital fund activity, and developed different methods to manage the
consolidated activities’ operations. In addition, business practices were not followed.
Finally, Puget Sound’s information technology systems do not fully support operations.
As a result, we are unable to determine the effectiveness of the transition of Puget Sound
to mission funding. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer should continue the Puget Sound mission-funded prototype and not transition the
remaining public shipyards to mission-funding until meaningful metrics and goals are
established and measured to evaluate the Puget Sound transition. Further, before
transitioning other shipyards to mission funding, standard business practices and policies
must be developed to help the shipyards accurately measure cost, meet financial
reporting requirements, and report reliable financial information (finding A).

Other problems with reporting exist at the consolidated activities. DON officials did not
fully comply with guidance from the Deputy Under Secretary of Defense for Logistics
and Material Readiness concerning depot-level maintenance reporting. The guidance
required the use of FY 2004 actual depot-level maintenance obligation data, but allowed
the use of algorithms or estimation methods to determine the portion of depot-level
maintenance and repair services established in contractor support contracts. The Fleet
Readiness Division used an algorithm instead of available FY 2004 data and used the
algorithm to report depot-level maintenance other than contractor support contracts. As a
result, naval shipyard depot-level maintenance information included in reports to
Congress may not be reliable. The Deputy Chief of Naval Operations (Logistics), Fleet
Readiness Division needs to use actual obligation data for the FY 2005 and future reports
to determine the amount of depot-level maintenance performed at the naval shipyards
(finding B). See the Finding sections of the report for the detailed recommendations.

Management Comments and Audit Response. We issued the draft report on July 19,
2005. The Office of the Assistant Secretary of the Navy (Financial Management and
Comptroller) commented on the draft of this report for the DON. The DON disagreed
with the conclusion that the DON cannot support the decision to transition the shipyards
and intermediate maintenance facilities to mission funding. The management comments
received were partially responsive. We do not agree that the DON can support its
decision to transition the consolidated activities to mission funding. Representations
made by management regarding the effectiveness of mission funding were not
substantiated. As a result of management comments, we revised recommendation A.2. to
add the Office of the Assistant Secretary of the Navy (Financial Management and
Comptroller), Office of Budget as an addressee to provide comments on the final report
on this recommendation.

We did not receive comments for recommendations A.1. and A.2. from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer or for Recommendation A.2.
from the Under Secretary of Defense for Acquisition, Technology, and Logistics. We
also did not receive comments for recommendation B.1. from the Deputy Chief of Naval
Operations (Logistics), Fleet Readiness Division. We request the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Under Secretary of Defense
(Comptroller)/Chief Financial Officer; the Assistant Secretary of the Navy (Financial
Management and Comptroller), Office of Budget; Commander, U.S. Pacific Fleet;
Commander, Naval Sea Systems Command; and the Deputy Chief of Naval Operations
(Logistics), Fleet Readiness Division provide comments on the final report by January 9,
2006. See the Finding sections of the report for a discussion of management comments
and Appendix D for the complete text of the comments.



                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Management Control Program Review                                       3

Findings
     A. Evaluation of the Puget Sound Naval Shipyard Mission-funded
         Prototype                                                     4
     B. Internal Controls for Naval Shipyard Depot-Level Maintenance
         Reporting                                                     15

Appendixes
     A.   Scope and Methodology                                        19
     B.   Prior Coverage                                               21
     C.   OUSD (Comptroller)/CFO Request                               23
     D.   DON Comments on the Draft Report                             25
     E.   DON Comments to the Discussion Draft of this Report          29
     F.   Report Distribution                                          34
Background
           On January 12, 2005, the Deputy Comptroller for Program and Budget in the
           Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
           (OUSD [Comptroller]/CFO) requested that the DoD Office of Inspector General
           review the Puget Sound Naval Shipyard and Intermediate Maintenance Facility
           (Puget Sound) mission-funded prototype. The Deputy Comptroller expressed
           concerns that moving the public shipyards out of the working capital fund (WCF)
           without an adequate evaluation of the Puget Sound mission-funded prototype is
           premature because this is a significant change for the Department’s management
           of industrial fund activities. 1 The OUSD (Comptroller)/CFO directed the
           Department of the Navy (DON) to continue the mission-funded prototype
           program at Puget Sound and keep the remaining shipyards in the WCF until an
           independent assessment is conducted.

           Working Capital Fund and Mission Funding Structures. The WCF is a
           revolving fund financial structure used to provide necessary goods and services
           on a “break even” basis for the Armed Forces. The WCF generally operates using
           private sector management techniques and the total shipyard maintenance costs
           are fully funded before beginning work, thus providing total cost visibility.
           Organizations financed through the WCF derive their income from work they
           perform. Therefore, the funding is available to finance their continuing
           operations without fiscal year limitations. An organization must meet four
           criteria to be financed using the WCF:

                •   identifiable outputs,

                •   identifiable organizations that require the products or services,

                •   an approved accounting system, and

                •   evaluation of the advantages and disadvantages of establishing a buyer-
                    seller relationship.
           A mission-funded activity receives an operating budget that provides the total
           appropriated funding for the fiscal year without identification of the specific work
           to be accomplished. Therefore, mission-funded shipyards use appropriated funds
           for a specific fiscal year to perform depot-level maintenance. The DON believes
           that mission funding will improve readiness because the workforce can be
           reassigned as needed without requiring full funding of maintenance. DON
           representatives stated that cost information is as visible for organizations using
           mission funding as it is for organizations funded by the WCF, and that
           performance accountability is maintained or improved under mission funding.

1
    An industrial fund activity was historically an activity such as a Navy shipyard that provided industrial
    and commercial goods and services, such as depot maintenance.




                                                        1
           Shipyard and Intermediate Activity Consolidation History. In 1994, the Chief
           of Naval Operations decided to regionalize maintenance to:

                •   create workforce flexibility,

                •   reduce maintenance infrastructure through sharing or consolidating
                    intermediate and depot-level facilities, and

                •   integrate maintenance and supply.

           A key element of the Regional Maintenance Plan is the consolidation of separate
           intermediate and depot-level maintenance facilities in a region. 2 In FY 1998, the
           DON implemented a pilot project consolidating the management, operations, and
           funding of the Pearl Harbor Naval Shipyard and the Naval Intermediate
           Maintenance Facility (Pearl Harbor) in Hawaii. The pilot project used a single
           financial structure and selected mission funding rather than the WCF. To
           implement the pilot project, the DON and the Office of the Secretary of Defense
           developed a test plan with metrics to measure the performance. A DON report to
           Congress indicated that the Pearl Harbor pilot project was a success, and
           proposed the transition of the other remaining public shipyards to mission
           funding. However, the Government Accountability Office (GAO) expressed
           concerns that the pilot project did not provide adequate cost visibility and
           accountability over ship maintenance.

           Puget Sound History. In PBD 700C, “Navy Amended Budget Estimates
           Submission,” January 7, 2003, the DON received approval from the OUSD
           (Comptroller)/CFO to implement a 2-year prototype at one shipyard on a mission-
           funded basis with integrated intermediate maintenance and depot-level activities.
           Puget Sound was the site chosen. The Pearl Harbor pilot project served as the
           model for the Puget Sound mission-funded prototype and for all future
           consolidated shipyard and intermediate activities.

           The DON, the Office of the Under Secretary of Defense for Acquisition,
           Technology, and Logistics (OUSD [AT&L]), and the OUSD (Comptroller)/CFO
           were directed to evaluate the results of the Puget Sound prototype prior to final
           decisions on the FY 2006 President’s budget. To evaluate the prototype, the
           DON, OUSD (AT&L), and OUSD (Comptroller)/CFO were to work together to
           develop metrics and goals to provide total cost visibility and performance
           accountability under mission funding, and the metrics were to be reported
           quarterly. The DON established four reporting mechanisms to address cost
           visibility and performance accountability concerns of the prototype:

                •   the virtual 1307 report, 3
                •   the ship availability schedule report,

2
    Intermediate facilities perform maintenance beyond the capability or capacity of a ship’s crew consisting
    of short but time-critical projects. The scope of maintenance performed at depot-level facilities is
    described in finding B.
3
    The virtual 1307 was developed based on a WCF document, Accounting Report (m) 1307, used to report
    the total cost involved with operating the shipyard.



                                                       2
       •   the post availability quality report, and

       •   the customer appraisal of quality report.

    On May 15, 2003, the DON officially merged all facilities and functions of the
    Puget Sound Naval Shipyard in Bremerton, Washington, and the Naval
    Intermediate Maintenance Facility, Pacific Northwest to create the 2-year
    prototype that began in FY 2004. At the time of our site visit in April 2005,
    Puget Sound had completed two mission-funded projects since the consolidation
    and transition to mission funding.

    Puget Sound Operations. Puget Sound is a single regional maintenance
    organization with a single integrated workforce operated by the Commander,
    Naval Sea Systems Command (NAVSEA) and under the claimancy of the
    Commander, U.S. Pacific Fleet (COMPACFLT). NAVSEA oversees the
    management and operation of Puget Sound, exercises complete technical and
    engineering authority, funds centrally managed program technical support, and
    develops instructions defining processes and business practices. The
    COMPACFLT is responsible for programming and budgeting resources and, as
    such, matches resources to requirements and determines workload, priorities, and
    schedules.


Objectives
    Our overall audit objective was to evaluate the Puget Sound mission-funded
    prototype. Specifically, we evaluated the metrics and goals, the development of
    the shipyard rate, and the effect on Congressional reporting. See Appendix A for
    a discussion of the scope. See Appendix B for prior coverage related to the
    objectives. Appendix C is the OUSD (Comptroller)/CFO letter requesting the
    audit.

Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not review
    the DON system of management controls. However, during the course of the
    audit, we identified internal control weaknesses involving the transition of the
    shipyards to mission funding and shipyard depot-level maintenance reporting.
    See findings A and B for more details on this review.




                                          3
           A. Evaluation of the Puget Sound Naval
              Shipyard Mission-funded Prototype
           The DON cannot support its decision to transition the shipyards and
           intermediate maintenance facilities to mission funding because it did not
           properly plan for their transition. As a result, we are unable to determine
           the effectiveness of the transition of Puget Sound to mission funding.


Puget Sound Mission-Funded Prototype
    The DON decision to transition shipyards and intermediate maintenance facilities
    to mission funding is not supported because the established metrics and goals
    used to track results of the transition for the Puget Sound prototype were
    unreliable. Additionally, the metrics and goals focused on the consolidation of
    the shipyard and intermediate maintenance facility but did not address the impacts
    of mission funding. Also, the consolidated activities did not routinely accumulate
    financial information as they had done when financed as a WCF activity, and
    developed different methods to manage the consolidated activities’ operations. In
    addition, business practices were not followed. Finally, Puget Sound’s
    information technology systems do not fully support operations. Until the DON
    can measure and demonstrate the impact of mission funding on the consolidated
    activities, and establish the required policies and procedures for them, it should
    extend the Puget Sound mission-funded prototype and not transition the
    remaining shipyards to mission funding.
    Metrics and Goals Reliability. The established metrics and goals reported for
    Puget Sound were not reliable. Specifically, the Puget Sound cost visibility and
    performance accountability metrics were inconsistently prepared in FY 2004.
    The DON could not provide documentation to fully support most of the costs
    reported on the quarterly FY 2004 virtual 1307 reports. For example, Puget
    Sound representatives were inconsistent in using methodologies to calculate the
    Contracts line item on the virtual 1307 report. They used one methodology to
    calculate the first and third quarter Contracts amount and a different methodology
    to calculate the second and fourth quarter Contracts amount. Puget Sound
    representatives also could not support reported costs for the Salaries and Wages-
    Civilian line item because the shipyard financial information system does not
    maintain historical information when new information is entered into the system.
    Furthermore, Puget Sound could not support costs associated with base operations
    because it does not track these costs. The Commander, Naval Installations is
    responsible for funding base support costs and provides the cost data to the
    shipyard. However, Puget Sound representatives stated that some of the activity’s
    base support costs are not included because they cannot distinguish these costs
    from those of the entire installation.

    Puget Sound representatives also inconsistently reported amounts within the
    performance accountability metrics. For example, on the FY 2004 quarterly post
    availability quality reports, Puget Sound reported maintenance deficiencies in the
    quarter that the maintenance deficiency occurred; however, they did not


                                         4
consistently allocate the deficiencies based on this methodology. In the first
quarter of FY 2005, NAVSEA required Puget Sound to modify their original
methodology and report the maintenance deficiencies 90 days after ship
maintenance was completed instead of in the quarter when the deficiency
occurred. Puget Sound representatives indicated NAVSEA instructed them to
shift the results reported in FY 2004 forward one quarter (from the original
quarter in which the maintenance deficiencies were reported) because the
maintenance deficiencies were reported incorrectly. However, the NAVSEA
methodology did not correct the past inconsistent reporting of the maintenance
deficiencies.

Consolidation of Activities and Impacts of Mission Funding. The mission-
funded metrics and goals established for Puget Sound focus on the consolidation
of the shipyard and intermediate maintenance facility rather than the transition of
the consolidated activities to mission funding. The DON used the results of the
metrics and goals, test plan, and lessons learned from the original pilot project
that consolidated Pearl Harbor to transition Puget Sound to mission funding.
However, the purpose of the Pearl Harbor metrics and goals and test plan was to
evaluate the concept of consolidating the intermediate and depot-level
maintenance activities. As such, the metrics were not valid for assessing the
effect of the transition to mission funding.

DON representatives stated that mission funding is merely the funding structure
that allows for the consolidation of the shipyard and intermediate maintenance
facility; however, the DON presented several ways that mission funding impacted
operations at the shipyard. According to DON, mission-funding provided
flexibility to respond to changing maintenance requirements and priorities,
improved use of workforce, and improved performance to budget. However,
these impacts are not addressed or measured in the metrics and goals established
for the Puget Sound prototype.

Management Reports and Financial Data Accumulation. The DON claimed
that the consolidated activities exhibited the same cost visibility as when they
were funded under the WCF. However, NAVSEA and the consolidated activities
took more than 3 weeks to provide financial information similar to that available
in WCF routine reports. We requested the total amount of funds received and
used from all shipyard customers for a fiscal year, which had been routinely
reported by both Pearl Harbor and Puget Sound when they were funded under the
WCF. Puget Sound, because it had transitioned to mission funding more
recently—in FY 2004—was able, although with extensive effort, to provide the
amount of funding received in FY 2004 and the amount of funding that carried
over into FY 2005. However, Pearl Harbor could only determine the amount of
funds received in FY 2004. NAVSEA representatives stated extensive time and
effort would be required for Pearl Harbor to determine funding amounts carried
over from previous years or carried over to the following fiscal year because Pearl
Harbor no longer accumulated the information in the same format under mission
funding.




                                     5
           Cost information also was not collected to determine the total cost—including all
           associated overhead costs—required to establish an overhead rate to charge non-
           DoD customers for maintenance performed. The rate Puget Sound charged to
           non-DoD customers only included direct labor and direct material costs,
           excluding overhead costs. The omission occurred because COMPACFLT is
           responsible for funding all overhead costs under mission funding. Puget Sound
           representatives indicated that under mission funding, the consolidated activity no
           longer routinely accumulates costs necessary to compute an overhead rate.
           However, Public Law 90-629, “Arms Export Control Act,” Section 21, “Sales
           from Stocks,” as amended October 6, 2000; the Statement of Federal Financial
           Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
           Standards for the Federal Government,” July 31, 1995; and the DoD Financial
           Management Regulation, Volume 11a, Chapter 1, “General Reimbursement
           Procedures and Supporting Documentation,” March 1997, require the DoD to
           charge the full cost of services—including overhead—provided to other Federal
           agencies, private parties, and foreign military sales. 4

           The DON also had not established standard operating guidance to monitor
           operations at the consolidated activities. In the absence of standard operating
           guidance, the consolidated activities have established activity-specific methods to
           monitor operations. For example, Pearl Harbor established a report that compares
           the Workload and Resource Report (WARR) 5 to the Shipyard Maintenance
           Capabilities Plan Model (the model) 6 to identify and explain deviations between
           budgeted workload and actual workload. This information was used by shipyard
           management as a basis for decisions regarding workload priorities and to compare
           budgeted performance to actual performance projected out for the remainder of
           the fiscal year. However, the process of comparing the WARR to the model has
           not yet been adopted for use at Puget Sound.

           Business Practices at the Consolidated Activities. The DON is not in
           compliance with established business practices for reimbursable work performed
           at the consolidated activities. Memoranda of Agreement between COMPACFLT
           and NAVSEA, “Consolidation of Puget Sound Naval Shipyard and Naval
           Intermediate Maintenance Facility, Pacific Northwest,” May 5, 2003, and
           “Integration of Pearl Harbor Naval Shipyard and Naval Intermediate Maintenance
           Facility, Pearl Harbor,” November 26, 1997, require work that is not
           COMPACFLT funded (for example, some alterations; inactivations; Shipbuilding

4
     Statement of Federal Financial Accounting Standard No.4 defines full cost as the sum of (1) the cost of
    the resources consumed by the responsible segment that directly or indirectly contributes to the output,
    and (2) the cost of identifiable supporting services provided by other responsible segments within the
    reporting entity, and by other reporting entities. The full cost of a responsible segment’s output is the
    total amount of resources used to produce the output, which includes direct and indirect costs that
    contribute to the output regardless of funding sources.
5
    The WARR provides a tool for forecasting resource needs, employment, training, and workforce
    assignments commensurate with workload over a 72 month period. The WARR is used by the
    consolidated activities for hiring or release plans for the workforce, to identify corporate workforce to
    workload imbalances, and for advanced planning of resources.
6
    The model’s main function is to program dollars for ship maintenance to assist in the preparation of the
    DON ship maintenance budget. The model is used for three main purposes: workforce planning,
    budgeting total labor costs, and budgeting total material costs.



                                                         6
           and Conversion, Navy-funded availabilities; 7 and some planning functions) are to
           be reimbursably funded and can continue to be funded using a project order.
           However, Engineered Refueling Overhaul 8 projects, which are Shipbuilding and
           Conversion, Navy-funded availabilities, are incrementally funded using Economy
           Act orders since the transition to mission funding. The Engineered Refueling
           Overhaul projects were historically funded by NAVSEA, using project orders that
           required full funding at the time the order was placed. Puget Sound
           representatives indicated that this change in practice was not documented, and
           they have not received written guidance from the DON documenting this change.

           Information Technology Manual Workarounds. The information technology
           systems available at Puget Sound do not fully support the consolidated activity’s
           operations. After the consolidation, Puget Sound was required to maintain two
           accounting information systems to manage the operations of the activities.
           Therefore, there is considerable manual effort required to assemble information
           for reports and data calls for the consolidated activity. For example, multiple
           databases from the Puget Sound shipyard cost information system had to be
           maintained and manual interfaces had to be established to reflect the combined
           activity’s projects, as well as to break out the cost-reimbursable projects versus
           mission-funded projects on the WARR. Additionally, for projects that spanned
           multiple fiscal years, Puget Sound personnel had to manually extract data from
           multiple databases and add them together to determine the total cost of a project.
           In addition, the shipyard had to implement new end-of-year procedures to enable
           the appropriated funds to be de-obligated at the end of the current year and
           identified for re-entry into the next year’s database to be re-obligated. These
           issues were not encountered until the transition to mission funding at Puget Sound
           because the reimbursable workload at Pearl Harbor was not substantial.


Planning of the Puget Sound Naval Shipyard Mission-funded
  Prototype
           The condition that the DON cannot support the decision to transition the
           shipyards and intermediate maintenance facilities to mission funding occurred
           because the DON did not properly plan the transition of the shipyards and
           intermediate maintenance facilities to mission funding.
           Metrics and Goals Policies and Procedures. The DON did not establish
           standard policies or procedures for reporting mission-funded metrics and goals.
           Specifically, the DON did not establish any standard policies or procedures for

7
    The Shipbuilding and Conversion, Navy appropriation finances the construction of new ships and
    conversion of existing ships, including all hull, mechanical and electrical equipment, electronics, guns,
    torpedo and missile launching systems, and communications systems.
8
    The term engineered refueling overhaul availability describes or identifies differences in fundamental
    planning and execution among overhaul availabilities of different nuclear powered ship classes during
    which the reactor is also refueled. An overhaul is a major availability usually exceeding 6-months
    duration for the accomplishment of maintenance and modernization.




                                                        7
the preparation of the mission-funded metrics and goals or the capture of
documentation to support reported amounts. Standard policies and procedures
would provide reliability of the quarterly mission-funded metrics and goals by
eliminating inconsistencies and unsupported costs.

Transition of Puget Sound to Mission Funding. The DON did not properly
plan for the transition of Puget Sound to mission funding because it relied on the
planning for the Pearl Harbor pilot program. The DON stated it was not
necessary to establish a new test plan or other planning documentation because it
was not required, it would create a financial burden, and the lessons learned from
Pearl Harbor could be used at Puget Sound. However, the DON did not have any
evaluation factors in place to adequately measure the transition to mission
funding. The DON, OUSD (Comptroller)/CFO, and OUSD (AT&L) should
jointly establish new metrics and goals that evaluate the impacts of mission
funding on the consolidated activity in order to provide a mechanism for
evaluating productivity and performance.

Operational and Financial Reporting Guidance. The DON did not develop
new guidance or update existing guidance related to operational and financial
reporting requirements for the consolidated activities prior to the transition to
mission funding. COMPACFLT and NAVSEA did not issue an instruction in
accordance with the May 5, 2003, Puget Sound Memorandum of Agreement that
defined processes and business practices required for the operations of the
consolidated activity. This lack of guidance created confusion within the DON
regarding what guidance to follow at the consolidated activities. For example, a
Puget Sound representative indicated they used the DoD Financial Management
Regulation; NAVSEA Instruction 7670.1, “Navy Industrial Fund Financial
Management Systems and Procedures Manual;” and the Navy Comptroller
Manual. NAVSEA indicated that only the DoD Financial Management
Regulation was used and did not provide the NAVSEA instruction for our review.
However, on April 21, 2005, 8 years after the consolidation of the first naval
shipyard and intermediate maintenance facility, NAVSEA requested that the
consolidated activities provide comments on NAVSEA Instruction 7670.1,
Chapter 4, Section 2, “Uniform Costing Policies and Procedures for Naval
Shipyards” to reflect the changes since the transition of the shipyards to mission
funding.

The DON representatives stated that there was no change in cost visibility at the
consolidated activities after transitioning to mission funding. However, the
activity was no longer required to report cost in accordance with WCF
procedures. The Navy did not identify the requirement to collect financial
information at the consolidated activities to report the full cost of operations. The
DON attempted to establish the virtual 1307 as a reporting requirement to capture
the full cost of the consolidated activities after transitioning to mission funding.
However, OUSD (AT&L), OUSD (Comptroller)/CFO, NAVSEA, Puget Sound,
and Pearl Harbor representatives said they did not use the virtual 1307 report
because either it did not provide the necessary information required for
management of the activity or the information was not reliable. The consolidated
activity representatives indicated that the lack of guidance led to an excessive
amount of time spent working on ad hoc reports and data calls, and information
requirements were evolving as decision makers identified what data they needed.


                                      8
The DON did not identify the requirement to routinely accumulate financial
information to support the consolidated activity’s operations and decision making.
Specifically, the DON had not identified the requirement to collect cost
information at the consolidated activity to comply with Statement of Federal
Financial Accounting Standard No. 4. For example, the DON did not routinely
accumulate the total funding received and used during each fiscal year to identify
the total amount of resources required for operation of the consolidated activity.
In addition, the DON did not routinely accumulate cost data required to establish
rates to charge non-DoD reimbursable customers of the consolidated activity.

Business Practices at the Consolidated Activities. The DON had not updated
or changed its Memorandum of Agreement to reflect the change in business
practice to fund the Engineered Refueling Overhaul projects incrementally, using
Economy Act orders rather than fully funded project orders. Guidance indicates
that the consolidated activity can continue to reimbursably fund work that is not
COMPACFLT funded with the use of a project order. However, according to
Pearl Harbor and Puget Sound representatives, the consolidated activities use
incrementally funded Economy Act orders for the Engineered Refueling Overhaul
projects. The DON indicated that this change in business practice was required
because project orders could no longer be used at the consolidated activities, and
Economy Act orders provided the customer with better cost control. The audit
team could find no written policy to support DON using incremental funding for
the Engineered Refueling Overhaul projects or to substantiate the claims of better
cost control.

Information Technology Systems. The DON did not address information
technology issues at Puget Sound prior to the consolidated activity’s transition to
mission funding. After Puget Sound transitioned to mission funding, information
technology issues arose that had not been encountered at Pearl Harbor. At Pearl
Harbor, a new module of the Advanced Industrial Management system was
created, the Advanced Industrial Management-Express, in order to accommodate
mission funding and the functionalities at both the intermediate and depot-level
maintenance facilities. A Pearl Harbor representative stated that the DON
planned to use this system at future consolidated shipyard activities despite
comments made in the Pearl Harbor Regional Maintenance Pilot – Lessons
Learned report, June 9, 2000. The report stated:
       Although the current [accounting information system] suite in use for
       the Pilot is performing adequately, it is not user friendly and it should
       not be assumed or concluded that this suite can be exported for use in
       other regions. Such things as differences in operational processes,
       differing product lines, differing legacy systems, and customization of
       “standard” systems make it necessary to take each region’s needs and
       requirements into consideration in the development of [accounting
       information system] merger and transition plans. However, this does
       not preclude [accounting information system] standardization or
       uniformity among regions --- the point to be made is that the current
       Pilot suite does not provide full functionality for all regions and it is
       not a fully integrated software solution.




                                          9
     The DON did not incorporate this lesson learned into the planning for the Puget
     Sound prototype and realized after the Puget Sound transition that Advanced
     Industrial Management-Express would not work at Puget Sound because of
     differing product lines and information requirements. Puget Sound continues to
     use two information systems and incur the costs—approximately $2.2 million to
     date—associated with necessary system changes and interfaces.


Operating Efficiency of Puget Sound
     As a result, we are unable to determine the effectiveness of the transition of Puget
     Sound to mission funding. In the past, the WCF has been the funding structure at
     industrial activities, which include the naval shipyards, and all of the regulations
     and policies associated with those activities were WCF-related. Because the
     DON did not set measurable goals and adequately define cost requirements, the
     merits or the drawbacks of mission funding at an industrial activity cannot be
     validated and the reliability of the data produced under this structure is in
     question. While it appears that there are some benefits to mission funding, such
     as the flexibility to move the workforce between the naval shipyard and
     maintenance activities, the audit team could not substantiate these claims.
     Defining requirements and establishing new metrics and goals associated with the
     transition to mission funding will help the DON, OUSD (Comptroller)/CFO,
     OUSD (AT&L), and the consolidated shipyards measure the success of the Puget
     Sound mission-funded prototype and better manage the day-to-day operations of a
     mission-funded activity.


Management Comments on the Finding and Audit Response
     DON Comments. The DON disagreed that the DON cannot support the decision
     to transition the shipyards and intermediate maintenance facilities to mission
     funding. The DON stated that the report was flawed because it suggested that the
     effectiveness of the financing methodology will determine the success of the
     DON ship maintenance program. However, the DON indicated that funding
     methodologies facilitate efficiency and effectiveness and add neutral value to
     operating efficiency. The DON also stated the report incorrectly opined that the
     purpose of the goals and metrics was to evaluate the effect of the transition to
     mission funding. Rather, the DON stated that the objective of the goals and
     metrics was to demonstrate that the DON could retain total cost visibility and
     performance accountability under mission funding, as required by PBD 700C.
     The DON indicated that the experience at Pearl Harbor and Puget Sound had
     demonstrated the ability to manage an integrated depot under mission funding.
     As the Fleets move to consolidate waterfront support, mission funding was
     considered to be an important element in achieving an effective, efficient, and
     agile organic ship repair capability. The DON position remained that the One
     Shipyard concept required the use of one financial system in order to facilitate
     standardization, transparency, and the development of consistent metrics.

     Audit Response. As part of the request from the OUSD (Comptroller)/CFO
     office, we were tasked to look at the change from the working capital fund to


                                         10
    mission funding at the shipyards, as well as the existing goals and metrics based
    on PBD 700C. Therefore, we did not base our decision solely on the intent of
    PBD 700C. We agree that PBD 700C stated that the DON, OUSD
    (Comptroller)/CFO, and USD (AT&L) develop criteria for the pilot that retain
    total cost visibility and performance accountability under mission funding. Our
    determination that the DON cannot support the decision to transition the
    shipyards and intermediate maintenance facilities to mission funding was based
    on the following issues discussed in the report.

       •   The DON did not establish standard policies or procedures for reporting
           mission-funded metrics and goals.

       •   Both the Pearl Harbor pilot and the Puget Sound prototype metrics and
           goals have been focused on the consolidation of the activities without
           determining the effectiveness of mission funding.

       •   The DON did not develop new guidance or update existing guidance
           related to operational and financial reporting requirements for the mission-
           funded consolidated activities.

    As stated in the report, the DON consistently claims that the same cost visibility
    is maintained within the mission-funded shipyard activities. However, mission-
    funded shipyard activities cannot replicate financial reports that were produced
    for working capital funded shipyard activities. Additionally, the DON has
    continually claimed that mission funding is the more effective funding
    methodology. When asked to substantiate this claim of improved effectiveness,
    the DON was unable to demonstrate that mission funding was more effective.
    The Navy needs to develop metrics that evaluate the effectiveness of the
    activities’ transition to mission funding before it transitions the remaining
    shipyard activities.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments,
    recommendation A.2. has been revised to add the Office of the Assistant
    Secretary of the Navy (Financial Management and Comptroller), Office of Budget
    as a responder to the recommendation. The revision was the result of
    management comments on the draft of this report.
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer continue the Puget Sound Naval
    Shipyard mission-funded prototype and do not transfer the remaining public
    shipyards from the Working Capital Fund until recommendations A.2.
    through A.4. are implemented.

    OUSD (Comptroller)/CFO Comments. The OUSD (Comptroller)/CFO did not
    provide comments on the draft of this report. We request that the OUSD
    (Comptroller)/CFO provide comments in response to the final report.



                                         11
Unsolicited DON Comments. The DON stated that the prototype has been a
success and mission funding should remain permanent. The DON indicated that
full implementation of the transition should proceed and the DON will remain
committed to resolving issues after the permanent transition.

Audit Response. Although not required to comment, the DON commented on
this recommendation. We believe that the decision to transition the remaining
shipyards remains premature. The DON has not collected the information
necessary to determine the success of the transition. Additionally, if the
remaining shipyards are allowed to transition prior to resolving the identified
issues, the issues may be compounded and may result in more problems in the
long term.

A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics; Under Secretary of Defense (Comptroller)/Chief
Financial Officer; Under Secretary of the Navy (Financial Management and
Comptroller), Office of Budget; and the Deputy Chief of Naval Operations
(Logistics), Fleet Readiness Division jointly establish metrics and goals and
baseline these metrics to evaluate the Puget Sound Naval Shipyard and
Intermediate Maintenance Facility transition to mission funding.

OUSD (AT&L) Comments. The OUSD (AT&L) did not provide comments on
the draft of this report. We request that the OUSD (AT&L) provide comments in
response to the final report.

OUSD (Comptroller)/CFO Comments. The OUSD (Comptroller)/CFO did not
provide comments on the draft of this report. We request that the OUSD
(Comptroller)/CFO provide comments in response to the final report.

DON Comments. The DON nonconcurred and stated that the existing goals and
metrics, established with representatives from OUSD (AT&L) and OUSD
(Comptroller)/CFO staffs, comply with PBD 700C. Regardless, the DON agreed
to continue to discuss goals and metrics that better demonstrate cost visibility and
performance accountability. The DON requested that the Office of the Assistant
Secretary of the Navy (Financial Management and Comptroller), Office of Budget
be required to respond to this recommendation.

Audit Response. The DON comments were not responsive to the
recommendation. As stated earlier in the report, both the Pearl Harbor pilot and
the Puget Sound prototype metrics and goals have focused on the consolidation of
the activities without determining the effectiveness of mission funding. The DON
needs to know the effectiveness of mission funding as compared with working
capital fund financing prior to transitioning the remaining shipyards. An
addressee was added to the recommendation based on management’s request. We
request that the DON reconsider its position on the recommendation and provide
comments on the final report.

A.3. We recommend that the Commander, Naval Sea Systems Command
establish policies and procedures for mission-funded metrics and goals to
ensure information is consistently collected and reported and supporting
documentation is maintained to fully support reported results.


                                    12
DON Comments. The DON concurred with the establishment of cascading
metrics and the improvement of policies and procedures to ensure greater
consistency and retention of supporting documentation.

Audit Response. The DON comments were partially responsive. The DON did
not identify the proposed action(s) and completion date(s) related to the
establishment of policies and procedures for the metrics and goals. We request
the DON provide a plan of action with milestones in its comments on the final
report for the establishment of metrics and improved procedures.

A.4. We recommend that the Commander, Naval Sea Systems Command
and Commander, U.S. Pacific Fleet:

       a. Jointly develop an instruction addressing the processes and
business practices to be used at mission-funded shipyards.

       b. Issue guidance to address routine financial reporting requirements
and cost information accumulation requirements necessary for the
operations of the consolidated activity.

       c. Update existing reporting and cost guidance applicable to the
consolidated activity to reflect changes since consolidating and transitioning
the shipyards and intermediate maintenance facilities to mission funding.

      d. Identify information technology system requirements for
supporting the operations of all consolidated activities affected by the
shipyard transition to mission funding in order to avoid costly manual
workarounds and system bridges.

DON Comments. The DON nonconcurred with recommendations A.4.a., A.4.b.,
and A.4.c. because the issues presented were not unique to mission-funded
activities but also applied to working capital funded activities. However, the
DON indicated that they support improving top-down guidance, improving
operating procedures, improving consistency of financial information, and
ensuring compliance with fiscal policy. The DON concurred with
recommendation A.4.d.

Audit Response. The DON comments were not responsive to recommendations
A.4.a; A.4.b., and A.4.c. We agree that the same type of guidance and
instructions are required for both mission-funded and working capital funded
activities. The specific requirements addressed in the recommendations are
specific to the mission-funded shipyards. The DON has not identified the cost
and operational data required to be presented on a recurring basis to track the
efficiency and effectiveness of the mission-funded shipyard, thereby lacking a
means by which to measure performance. The DON consistently states that the
same cost visibility is maintained within the mission-funded shipyard activities.
However, mission-funded shipyard activities cannot replicate financial reports
that were produced for working capital funded shipyard activities. We request
that the DON reconsider its position on the recommendations and provide
comments on the final report.



                                    13
    The DON response to recommendation A.4.d. was partially responsive. The
    DON agreed to address information technology system requirements. However,
    the DON did not identify the proposed action(s) and completion date(s). The
    need to properly plan and identify information system requirements prior to
    transitioning the remaining shipyard activities is crucial in order to avoid costly
    fixes and workarounds. We request the DON provide a plan of action with
    milestones in response to the final report for identifying information technology
    requirements.


Management Comments Required
    In response to the final report, management is requested to provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 1.


                        Table 1. Management Comments Required

                                                      Concur/      Proposed    Completion
     Recommendation            Organization          Nonconcur      Action       Date

     A.1.                       OUSD                     X             X             X
                           (Comptroller)/CFO
                           USD(AT&L), OUSD
     A.2.                  (Comptroller)/CFO,            X             X             X
                                  DON

     A.3.                         DON                                  X             X

     A.4.a., A.4.b.,              DON                    X             X             X
     A.4.c.

     A.4.d.                       DON                                  X             X




                                         14
           B. Internal Controls for Naval Shipyard
              Depot-Level Maintenance Reporting
           DON officials did not fully comply with the Deputy Under Secretary of
           Defense for Logistics and Material Readiness (DUSD [L&MR]) guidance
           concerning depot-level maintenance reporting. This condition occurred
           because the Deputy Chief of Naval Operations (Logistics), Fleet
           Readiness Division (Fleet Readiness Division) used an algorithm to report
           depot-level maintenance when actual data was available. As a result,
           naval shipyard depot-level maintenance information included in
           maintenance reports to Congress may not be reliable.

Congressional Reporting Requirement
    Section 2460, title 10, United States Code, January 6, 2003, (10 U.S.C. 2460)
    defines depot-level maintenance and repair to include material maintenance or
    repair requiring the overhaul, upgrading, or rebuilding of parts, assemblies, or
    subassemblies, and the testing and reclamation of equipment as necessary,
    regardless of the source of funds or the location at which the maintenance or
    repair is performed. Depot-level maintenance and repair does not include the
    procurement of major modifications or upgrades of weapon systems designed to
    improve program performance or the nuclear refueling of an aircraft carrier.

    Section 2466, title 10, United States Code, January 6, 2003, (10 U.S.C. 2466)
    requires the DON to limit the amount of depot-level maintenance and repair
    workload performed by non-Federal Government personnel to no more than
    50 percent of the total depot workload reported for the Department. Any funds
    that are not used for a contract are to be used for the performance of depot-level
    maintenance and repair workload by DoD employees. This requirement, known
    as the 50/50 report, includes reporting of depot-level maintenance performed at
    naval shipyards.
    Public Law 108-375, section 321, “Simplification of Annual Reporting
    Requirements Concerning Funds Expended for Depot Maintenance and Repair
    Workloads,” October 28, 2004, amended 10 U.S.C. 2466 to require one annual
    report from DoD containing the percentage of funds expended for depot-level
    maintenance during the preceding fiscal year and projected to be expended for the
    current and next fiscal year. In addition, the Comptroller General must submit a
    report that determines whether DoD complied with the 50 percent requirement for
    the preceding year and whether the expenditure projections for the current and
    future fiscal years are reasonable.


DoD Reporting Guidance
    The Fleet Readiness Division did not fully comply with the DUSD (L&MR)
    memorandum, “Distribution of DoD Depot Maintenance Workloads,” dated
    November 12, 2004. The DUSD (L&MR) memorandum implemented the DoD


                                        15
    reporting requirements in accordance with 10 U.S.C. 2466. The memorandum
    requires the use of FY 2004 actual depot-level maintenance obligation data, but
    allows for the use of algorithms or estimation methods to determine the portion of
    depot-level maintenance and repair services established in contractor support
    contracts. However, each agency must maintain records that describe and explain
    any algorithms or estimation formulas used for depot-level maintenance
    reporting. The Fleet Readiness Division used an algorithm instead of available
    FY 2004 data and used it to estimate depot-level maintenance for work performed
    by DoD employees.


Documentation of DON Internal Policies and Procedures
    The Fleet Readiness Division used an algorithm to report depot-level maintenance
    at the consolidated naval shipyard and intermediate maintenance facilities when
    actual data was available. After consolidating two naval shipyards and
    intermediate maintenance facilities, the Fleet Readiness Division directed the
    consolidated activities to use the Ship Maintenance Capability Plan Model (the
    model), or algorithm, to exclude the intermediate-level maintenance. The model
    calculates the percentage of depot-level maintenance based on a percentage of the
    total workload reported by the consolidated activity to determine the amount
    reported to Congress within the 50/50 report. However, according to a Fleet
    Readiness Division official, procedures for what information is included in the
    model and how the percentage is calculated for the 50/50 report is not
    documented.

    According to Puget Sound and COMPACFLT representatives, actual data was
    available at Puget Sound to determine the amount of depot-level and
    intermediate-level maintenance performed during the fiscal year because separate
    systems were maintained at the shipyard and the intermediate maintenance
    facility after the consolidation. The Fleet Readiness Division was not aware that
    Puget Sound maintained actual depot-level maintenance data for use in the
    50/50 report. We raised this issue with Fleet Readiness Division officials, who
    acknowledged it as a weakness and took corrective actions to discontinue the use
    of the algorithm when actual data is available. Therefore, we are making no
    recommendations concerning the use of algorithms at Puget Sound.

    The Fleet Readiness Division used the algorithm to report depot-level
    maintenance at Pearl Harbor for the FY 2005 report to Congress. However, Pearl
    Harbor representatives stated that they also were able to provide actual data on
    depot-level maintenance performed at their facility. They can review each
    maintenance project customer order acceptance record to determine whether each
    project should be classified as intermediate or depot-level maintenance. The Fleet
    Readiness Division felt the data they received from Pearl Harbor using this
    methodology was not accurate and elected to instead use the algorithm to estimate
    the amount of total depot-level maintenance performed at the shipyard and
    intermediate maintenance facility. However, that use of the algorithm does not
    comply with the DUSD (L&MR) memorandum. The algorithm is to be used to
    determine the portion of depot-level maintenance and repair services established
    in contractor support contracts only when actual data is not available. In order to
    comply with the requirements set forth by the November 2004 DUSD (L&MR)


                                        16
     guidance, the Fleet Readiness Division should not use an algorithm to support the
     amount of depot-level maintenance performed by DoD employees, but should use
     actual obligation data.

     Table 2. shows the FY 2004 total COMPACFLT-funded depot-level maintenance
     performed at Puget Sound and Pearl Harbor. The different calculations include
     the amounts reported by the consolidated activities to COMPACFLT, revisions to
     those amounts made by COMPACFLT based on DUSD (L&MR) and DON
     guidance, and the amounts included within the 50/50 report to Congress by the
     Fleet Readiness Division.

         Table 2. Depot-Level Workload Reported for Pearl Harbor and Puget
                                 Sound for FY 2004
                                (dollars in thousands)

                         Shipyard              COMPACFLT                    Report
      Shipyard          Calculation             Calculation              to Congress
      Puget Sound        $326,768               $344,600                 $411,200
      Pearl Harbor        188,134                197,900                  282,800



     While we did not validate any of the amounts included in Table 2., the significant
     differences in total workload amounts indicate that what is reported to Congress
     may not be a precise measure of the amount of depot-level work performed at the
     consolidated activities. Both the GAO and the Naval Audit Service (NAS) are
     reviewing the accuracy of the information provided by the DON for the
     50/50 report.


Reliability of Shipyard Data
     As a result, internal and external depot-level maintenance reports prepared for
     Congress may not reliable. The quality of the data is essential because these
     reports are used to address Congressional concern for the amount of depot-level
     maintenance by non-Federal personnel within DoD, including the shipyards. The
     use of actual obligation data will comply with the guidance published by
     DUSD (L&MR) and assist the DON efforts to ensure data integrity and
     reliability.


Recommendation
     B.1. We recommend that the Deputy Chief of Naval Operations (Logistics), Fleet
     Readiness Division use actual obligation data to determine the amount of depot-
     level maintenance performed by the naval shipyards and to report that data in the
     Distribution of DoD Depot Maintenance Workloads report for FY 2005 and
     future workload reports.


                                         17
Management Comments Required
    The Deputy Chief of Naval Operations (Logistics), Fleet Readiness Division did
    not comment on the draft of this report. We request that the Deputy Chief of
    Naval Operations (Logistics), Fleet Readiness Division provide comments on the
    final report.




                                      18
Appendix A. Scope and Methodology
   To review the Puget Sound mission-funded prototype, we evaluated the
   established metrics and goals, the development of shipyard rates, and the
   reporting of the Distribution of DoD Depot Maintenance Workloads report issued
   to Congress. Specifically, we met with representatives from the OUSD (AT&L),
   OUSD (Comptroller)/CFO, Assistant Secretary of the Navy (Financial
   Management and Budget), the Fleet Readiness Division, NAVSEA,
   COMPACFLT, Puget Sound, Pearl Harbor, Defense Finance and Accounting
   Service Cleveland, GAO, and NAS. We reviewed documentation dated from
   September 23, 1997, to April 21, 2005. We performed this audit from
   January 2005 through June 2005 in accordance with generally accepted
   government auditing standards. Our review did not include a review of the
   management control program because it was not a stated audit objective.

   To accomplish the audit objectives, we reviewed the following:

      •   FY 2004 and first quarter FY 2005 quarterly metrics and goals and the
          related supporting documentation for the FY 2004 metrics and goals, Pearl
          Harbor Pilot Study, Pearl Harbor Regional Maintenance Pilot Report to
          Congress and Lessons Learned, and the GAO recommendations to Pearl
          Harbor. These documents were reviewed to evaluate the established Puget
          Sound mission-funded prototype metrics and goals.

      •   Applicable laws and regulations to include Statement of Federal Financial
          Accounting Standards No. 4; the Arms Export Control Act (Public Law
          90-269); Department of Defense Financial Management Regulation
          Volume 11A, Chapter 1; Department of Defense Financial Management
          Regulation Volume 11A, Chapter 2; and NAVSEA Instruction 7670.1,
          Chapter 4, Section 2. Additionally, we reviewed project orders and work
          orders for different types of customers, Memoranda of Agreement
          between COMPACFLT and NAVSEA for the consolidation of the naval
          shipyards and intermediate maintenance facilities, the Concept of
          Operations for Integrating Intermediate and Depot Maintenance Activities,
          and various cost data and reports for Puget Sound provided by NAVSEA
          at our request. These documents were reviewed to determine the rate
          mission-funded shipyards are required to charge reimbursable customers.
      •   Depot-level maintenance documents including: applicable laws and
          regulations for reporting depot-level maintenance data, to include
          10 U.S.C. sections 2460 and 2466; DoD Depot Maintenance Workload
          Distribution Reports; GAO reports that reviewed DoD Depot Maintenance
          Workload Distribution data; and documentation provided by the Fleet
          Readiness Division and Puget Sound relating to depot-level maintenance
          distribution data and processes. The audit team did not validate the
          amounts reported in the 50/50 report to Congress, but instead reviewed
          documentation to develop an understanding of how depot-level
          maintenance workload data are compiled for Puget Sound and how the
          transition to mission funding would affect the compilation and reporting
          process.


                                      19
Use of Computer-Processed Data. We did not evaluate the general and
application controls related to the accounting system, Standard Accounting and
Reporting System-Field Level that processes data for the virtual 1307 report, or
the Logistics Data System, COST, and Department of the Navy Industrial Budget
Information System, which process data for shipyard costs. We did not evaluate
the controls because the information was only used to develop an understanding
of the processes in the areas of shipyard rate development and the establishment
of metrics and goals. Therefore, the results of the audit were not affected by not
evaluating the controls.

GAO High-Risk Area. The GAO has identified several high-risk areas in DoD.
This report provides coverage of the DoD Financial Management high-risk area.




                                    20
Appendix B. Prior Coverage
       During the last 5 years, GAO and the NAS have issued 12 reports discussing the
       transition of Naval Shipyards to mission funding and depot-level reporting.
       Unrestricted GAO reports can be accessed over the internet at
       http://www.gao.gov. Unrestricted NAS reports can be accessed at
       http://www.hq.navy.mil/NavalAudit/.


GAO
       GAO Report 04-871, “DEPOT MAINTENANCE: DOD Needs Plan to Ensure
       Compliance with Public and Private-Sector Funding Allocation,”
       September 29, 2004

       GAO Report 03-1023, “DEPOT MAINTENANCE: DOD’s 50-50 Reporting
       Should Be Streamlined,” September 15, 2003

       GAO Report 03-16, “DEPOT MAINTENANCE: Change in Reporting Practices
       and Requirements Could Enhance Congressional Oversight,” October 18, 2002

       GAO Report 02-95, “DEPOT MAINTENANCE: Management Attention
       Required to Further Improve Workload Allocation Data,” November 9, 2001

       GAO Report 01-19, “DEPOT MAINTENANCE: Key Financial Issues for
       Consolidations at Pearl Harbor and Elsewhere Are Still Unresolved,”
       January 22, 2001

       GAO Report 00-193, “DEPOT MAINTENANCE: Action Needed to Avoid
       Exceeding Ceiling on Contract Workloads,” August 24, 2000

       GAO Report 00-69, “DEPOT MAINTENANCE: Future Year Estimates of Public
       and Private Workloads Are Likely to Change,” March 1, 2000


Navy


       NAS Report N2005-0010, “The Department of the Navy’s Reporting of Depot
       Maintenance Workload Allocation Between Public and Private Sectors,”
       November 16, 2004

       NAS Report N2003-0082, “Reporting of Depot Maintenance Workload
       Allocation Between Public and Private Sectors,” September 5, 2003

       NAS Report N2003-0019, “Shipyard Management Information System,”
       December 9, 2002


                                          21
NAS Report N2001-0010, “Fiscal Year 2000 Naval Shipyard Financial
Accounting Performed by Defense Finance and Accounting Service Norfolk,”
February 6, 2001

NAS Report N2000-0035, “Allocation of Depot Maintenance Workload Between
Public and Private Sectors,” August 10, 2000




                                 22
Appendix C. OUSD (Comptroller)/CFO)
            Request




                    23
                                                        Final Report
                                                        Reference
                Appendix D. DON Comments on the Draft
                            Report




                                                        *


                                                        *




*
    Reference a. is in Appendix E.


                                     25
26
     Final Report
     Reference




     Revised




27
28
Appendix E. DON Comments on the Discussion
            Draft of this Report




                    29
30
31
32
33
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
U.S. Army Audit Agency

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Audit Service
Naval Inspector General
Commander, United States Pacific Fleet
Commander, Naval Sea Systems Command
Deputy Chief of Naval Operations (Logistics), Fleet Readiness Division
Commander, Pearl Harbor Naval Shipyard & Intermediate Maintenance Facility
Commander, Puget Sound Naval Shipyard & Intermediate Maintenance Facility

Department of the Air Force
Auditor General, Department of the Air Force


Combatant Command
Inspector General, U.S. Joint Forces Command




                                          34
Other Defense Organizations
Defense Contract Audit Agency
Defense Contract Management Agency
National Security Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census




                                        35
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Raymond D. Kidd
Kenneth B. VanHove
Shelly M. Farber
John C. Petrucci
Carrie A. Wade
Randall M. Critchlow
Juntyna M. McDonald
Kari C. Coates
